IN THE SUPREME COURT OF ALABAMA

June 12, 2020
1190019
Ex parte Derek Tyler Horton. PETITION FOR WRIT OF CERTIORARI TO THE COURT OF
CRIMINAL APPEALS (In re: Derek Tyler Horton v. State of Alabama) (Mobile Circuit Court:
CC-11-2588.80; Criminal Appeals : CR-17-0991).

CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced cause has been
duly submitted and considered by the Supreme Court of Alabama and the judgment indicated
below was entered in this cause on June 12, 2020:
Writ Denied. No Opinion. Shaw, J. - Parker, C.J., and Bryan, Mendheim, and Mitchell
JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P„ IT IS HEREBY ORDERED
that this Court's judgment in this cause is certified on this date. IT IS FURTHER ORDERED
that, unless otherwise ordered by this Court or agreed upon by the parties, the costs of this
cause are hereby taxed as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the foregoing is
a full, true, and correct copy of the instrument(s) herewith set out as same appear(s) of record in said
Court.
Witness my hand this 12th day of June, 2020.

jJUa.
Clerk, Supreme Court of Alabama

Appendix B

COURT OF CRIMINAL APPEALS
STATE OF ALABAMA
D. Scott Mitchell
Clerk
Gerrl Robinson
Assistant Clerk

P. O. Box 301555
Montgomery. AL 36130-1555
(334) 229-0751
Fax (334) 229-0521

September 27, 2019
CR-17-0991
Derek Tyler Horton v. State of Alabama (Appeal from Mobile Circuit Court: CC11-2588.80)

NOTICE
above'referenc^'causeby th^Court^Crim^na^Appeal^8
Application for Rehearing Overruled.

cc: Hon. Michael A. Youngpeter. Circuit Judge
Hon. JoJo Schwarzauer, Circuit Clerk
Glenn L. Davidson, Attorney
Robert Bucky Thomas. Attorney
William Daniel Dill. Asst. Attorney General

D. Scott Mitchell, Clerk
Court of Criminal Appeals

Appendix C

REL: August 9, 2019

^
should not bo cited as precedent. See Rule 54, Ala.R.App.P.
bri^»'=^r fL ,
thls nemorandua "shall have no precedential value and shall not be cited in Rule 54(d),
arguments or
“1<1 Shan not be used by any court within this state,
of the doctrine of law of the case, res judicata, collateral*^!^! t^,^rP°" of “tablishii^ the application
j
/
xxaterai estoppel, double jeopardy, or procedural bar."

Court of Criminal Appeals
State of Alabama
Heflin-Torbert Judicial Building
300 Dexter Avenue
Montgomery, Alabama 36104

MARYB.WINDOM
Presiding Judge
J. ELIZABETH KELLUM
J. CHRIS McCOOL
J. WILLIAM COLE
RICHARD J. MINOR
Judges

D. Scott Mitchell
Clerk
Gerri Robinson
Assistant Clerk
(334) 229-0751
Fax (334) 229-0521

MEMORANDUM
CR-17-0991

Mobile Circuit Court CC-11-2588.80

Derek Tyler Horton v. State of Alabama
WINDOM, Presiding Judge.
In August 2012, Derek Tyler Horton was convicted of three
counts of capital murder for the murder of Jeannette Romprey.
The murder was made capital because it was committed during
the course of
40 (a, (2) , Ala. Cod^ ^c^e
course of an arson in the first degree, see § 13A-5-40 (a) (9),
Ala. Code 1975; and because it was committed during the course
of a burglary in the first degree, see § 13A-5-40(a)(4), Ala.
1

Appendix A

Code 1975.
Jury
death.s rfcoZTrilVn

1“^

On
direct appeal, this Court reversed Horton's convictions and
death sentence. Horton v. State. 217 So 3d 27 (Ala Trim
thS\2,°16); In April 2018' Horton was subsequently retried^
the same charges and was again convicted of three counts of
capital murder.
Horton was sentenced to life in prison
without the possibility of parole.
On April 9, 2010, Romprey visited her friend, Deborah Ann
Niven. Betjwe^n 8:30 p.m. and 9:00 p.m. that evening, Romprey
If, ^
t0 retUrn t0 her home in Grand liy, which
was approximately one hour away from Niven's home
At
l-30 a‘m' °n Saturday^ AP^1 10, 2010, the Grand
ay Volunteer Fire Department received a report of a fire at
a residence off Old Highway 90. When firefighters arrived at
the scene, they found a mobile home engulfed in flames. Once
fire was out, firefighters discovered charred human and
canine remains m the mobile home.
The human remains were
determined to be those of Romprey.
The medical examiner
determined that Romprey had been shot twice in the head,
either of which would have been fatal. The medical examiner
stated that Romprey's blood tested negative for carbon
monoxide, indicating that Romprey was already dead when the
Deputy Fire Marshals investigated the fire at Romprey*s
mobile home.
Given the fire patterns, the degree of
destruction, the fact that there did not appear to be an
accidentai or weather-related cause, and that Romprey had been
shot, the Deputy Fire Marshals determined that the fire had
been intentionally set.
A crime scene investigator surveying the scene of the
fire discovered numerous household items at the bottom of a
nearby embankment.
These items included: two laptop
computers; a desktop computer tower; a flat-screen television;
jewelry boxes with jewelry in them, a tea-set box and several
pieces of a tea set; a women's wallet, which held Romprey's
Alabama. driver's license; and two watches,
The items,
identified as belonging to Romprey, were tested for
fingerprints; no usable fingerprints were found on any of the
items. During the investigation, law enforcement
- determined
2

Appendix A

that Romprey's PT Cruiser vehicle was missing and entered the
information regarding the PT Cruiser into the National Crime
Information Center C'NCIC'') database as a stolen vehicle.
Around 3:20 a.m. on the morning of April 10, 2010
Conecuh county Sheriff's Department received a call Lm a
Inte^stat-thss there Was a disabled vehicle on the side of
Interstate 65 near mile marker 76.
At 4*32 am
motorist called the department and reportedlhat a person
was
walking along the interstate in the same vicinity
Later
2°J\C111S came in reP°rting that there was a PT Cruiser in a '
ditch beside interstate 65.
The Conecuh County Sheriffs
Department relayed the information from the reports to the
Alabama Department of Public Safety.
P
° tne
State Trooper Cameron Fillingim was dispatched to
investigate the PT Cruiser; he arrived around 8:00 a.m. The
vehicle was unoccupied and was resting against a tree. The
doors were open, the keys were in the ignition, the ignition
was on, and the vehicle was in drive; however, the engine was
a^nnin,g- It was -Later determined that the vehicle was out
of gas._ After having the vehicle towed to Brewton, Trooper
Fillingim learned that the vehicle had been reported as stolen
by the Mobile County Sheriff's Office.
Trooper Fillingim
contacted the lead investigator, Corporal David Tunink, and
informed him that the vehicle had been found and towed to a
tow shop in Brewton.

cou„tL;iL'S^fwr^rrs ^

tnc1"

Sheriff s Department and Trooper Fillingim and had the vehicle
towed to Mobile.
The three officers then went to the area
where the vehicle had been found on Interstate 65 and examined
the scene. A short distance from the vehicle, they discovered
two separate debris fields containing personal items belonging
to Romprey.
Among the items were the vehicle's owner's
manual, a revolver, Romprey's checkbook, a photo album,
Romprey s notary seal, a personalized license plate with the
name ''NETTIE'', and various identification carls. The items
were processed for fingerprints, but no fingerprints were
ound on any of the items. The revolver was also tested for
the presence of blood and DNA.
No blood was found on the
3

Appendix A

weapon; a partial DMA profile was found but was too weak to do

found

“»

A few days later, Investigator Riddick returned to the
area where the debris fields had been found. Further south
Investigator Riddick found what appeared to be a rearview
mirror from the PT Cruiser and a blue nylon bag with a white
ForensT? qrnSld6'
^ hat WaS tested bY the Department of
thP
ScJ:ences* Three spots on the cap tested positive for
the presumptive presence of blood. These spots, as well as a
spot on the rim of the cap, were tested for DNA. All four
contained Horton's DNA. Romprey's PT Cruiser was also
processed for fingerprints and DNA. The driver's side door
contained a partial palm print that matched Horton's palm
print. A swab of the steering wheel was found to contain a
SiofiM6 °f *5? DNA °f at leaSt tW° Pe°Ple- 0ne of the DNA
profiles m the mixture matched Horton' s DNA.

m the. area of the abandoned vehicle.
Officer Morrow told
investigators that he had encountered a male walking on the
tori! °11 Statnff65 at aPProximatelY 7:30 a.m. on Sunday
2il10l °Jflcer Morrow was traveling northbound on
interstate 65 when he saw a man, whom he identified as Horton,
waiking on the side of the interstate around mile marker 80 or
°(fflccr Morrow pulled over to offer Horton assistance.
Horton s clothes were wet and muddy, and he was barefoot.
Officer Morrow asked why Horton was walking on the side of the
interstate, and Horton told Officer Morrow that he had been

^ar

??

3

friend

from

Pensacola,

Florida,

to

Huntsville, Alabama, that Friday night and that the two had
gotten into an altercation near Brewton. Horton said that his
friend drove off and left him.
Horton told Officer Morrow
that he began walking through a swamp toward Interstate 65.
When he reached Interstate 65,
„ ^
he continued walking
northbound. , Horton
told Officer Morrow that he had lost his
fv°f\and hlS wallet in the swamp. Officer Morrow told Horton
that his statement about walking through a swamp to get to the
interstate did not make any sense.
According to Officer
Morrow, Horton then shut down, making
it difficult to
4

Appendix A

communicate with him.
Horton told Officer Morrow that he was from the Mobile
area . Horton was initially adamant about going
to Huntsville,
but he later allowed Officer Morrow to assist him
in finding
a way home to the Mobile area,
Morrow drove to
several exits in the area in an Officer
attempt
to find Horton
assistance.
Finally, at a travel center at Exit 96 in
Evergreen,
Officer
Morrow was able to find assistance
.
for
Horton. „Customers
and employees at the travel center provided
Horton with dry clothes and shoes, fed him, and gave Horton
access to the showers at the center.
Officer Morrow
telephoned Horton's girlfriend and grandmother
.
and left
messages
,
, ,for
, them.
orrow testified that Horton's grandmother
returned his call and told him that she would be there to pick
up Horton in about two hours. After speaking wiS the tratS
center employees to inquire about leaving Horton at the
center, Officer Morrow left Horton there waiting for his
grandmother to arrive.

?h:FJf
approximately

if miles

loTtoSfn
^
from^Horton'' a "house ^n' Theodore and

approxinuateiy 3 miles from Romprey's mobile home in Grand Bay.
Tr WaS chaPeroninS a Youth group at the church
mat: night when a young man came to the church. Comer said
that the man seemed disoriented and would not make eye
contact.
The man said that he was looking for the priest,
Comer told the man that the priest was not there but informed
him that he could leave his name and telephone number and the
priest would contact him. The man wrote his name
"Derek
Horton"
and telephone number on a piece of paper
Comer

Switzer testified
that the white knit cap that had been found on the side of the
interstate was the cap Horton had been wearing that night.
A few minutes after visiting the church, Horton went to
* ?^r0n ?aS Jtatlon on 01d Highway 90, approximately one and

^eao hf“^rfro”
store
5

Appendix A

shows a man sitting on a curb at the store for approximately
18 minutes before getting up and walking away. Sarah Adams,
Horton's girlfriend at the time, identified the man as Horton.
Adams testified that she was supposed to visit Horton on
Horton's^moH-i *' 2010!, at his h°““'
when she tel“phS„ed
thS
*
aro+ur!d noon that daY' his mother informed her
at Horton was not home. No one knew where Horton was and
did not hear from Horton until Sunday April 11, 2010, when
Officer Morrow contacted Horton's family.
At Horton's
""ST S^r®qUeSt' Adams returned Officer Morrow's call and
ITJ°ke ™lth Hort-- Horton asked Adams not to tell his mother
where he was and that he wanted her to send him some money so
he could get away. Adams agreed not to tell his mother- and to
send him money; however, once she got off the phone, she
called Horton's mother and told her where Horton was
Horton s mother and grandmother then drove to Evergreen,
picked up Horton, and returned home.

cuthof

nowhere and drove it until it ran out of gas. (R. 2358.) He
said that angels then carried him the rest of the way.
n0t maVng much sense' mentioned a Catholic church and
that God wanted to use him to deliver judgment. The followina
day, Horton built a large fire in a fire pit in the backyard.
Horton made Adams stay outside and read the Bible for hours
while he threw things into the fire. Horton made Adams pray
and accused her of being insincere in her prayers.
Horton
kept the fire going for several days. That Wednesday, Horton
was arrested for domestic violence and placed in the Mobile
Metro jail.
Following Horton's arrest, photographs were taken showing
Horton with scratches on his arms and legs and with burn marks
on his hands. The day after Horton's arrest, Corporal Tunink
interviewed Horton. The interview was recorded and played for
the Jury. A transcript of the interview was also prepared and
introduced into evidence.
Corporal Tunink did not mention
Romprey s murder or question Horton about the murder. Rather,
Corporal Tunink asked questions about Horton’s background and
tne events of the previous week.
Corporal Tunink did ask
questions about the vehicle Horton had traveled in the
previous weekend and whether Horton had seen a fire. Horton
6

Appendix A

st^eci that he did not remember much of what had happened over
the past weeks but that he did remember running in the woods
n Evergreen on Sunday. Horton said that he had gotten a ride
from someone, but when asked to describe the person, he said
Horton”^0^^
people and theY were like angels.
Horton said he had followed good voices, which had led him to

S" ik'S SS

was ordered to BayPointe Hospital for a mental evaluation.
26^ 2010aS SUbsequently arr^ted for Romprey's murder on April

,Wb:L:L? in iai;lr H°rton made telephone calls to Adams. In
^
? I made °n April 22' 2010' H°rton asked Adams
to bond him out of 3ail, and Adams told Horton that she and
his mother had tried
to
bail him out but had been told they
,
,
could not.
During this call, Horton said that he was "on the
run" from a .murder charge and that he had no one who would
help
„ . him. . (R. 2380.) During a later call that same day,
orton again asked Adams to bail him out of jail. Adams told
Hor^ that she did not have the money.
She said that she
needed to work, for a few
days
to
earn
the
.
money to pay his
bond. Horton became agitated
and threatened that when he got
? i °5 ?*xl °n his OWn he would shoot everyone who had not
him and buirn down thoir housos.
On appeal,
Horton
^
.
argues: 1) that the evidence was
insufficient to sustain his convictions; 2) that the circuit
court should have suppressed evidence obtained after his
arrest for a domestic-violence charge because, he says, his
arrest was pretextual; 3) that the circuit court erred when it
admitted into evidence the recorded phone calls he made from
4 that the circuit court erred in granting the State's
challenge for cause of a prospective juror; and 5) that the
circuit court erred in refusing to dismiss the tcase as a
sanction for the State's failure to maintain and preserve
evidence that would have exonerated Horton.
I.
Horton

argues

that

the

evidence
7

Appendix A

was

insufficient

to

sustain
convictions,
„. his
.
the

Specifically, Horton contends that

omprey.
(Horton s brief, at 17.) Horton argues that, at
most, the evidence supported an inference that he had been a
driver or a passenger of Romprey's vehicle at some point and
could be guilty of receiving stolen property.
ft I II

In determining the sufficiency of
the evidence to sustain a conviction, a
reviewing court must accept as true all
evidence introduced by the State, accord
the
State
all
legitimate
_
inferences
therefrom, and. consider all evidence in a
li?fht most favorable to the prosecution. VI f
Ballenqer v. State. 720 So. 2d 1033, 1034
(Ala. Crim. App. 1998), quoting Faircloth
v. State. 471 So. 2d 485, 488 (Ala. Crim.
App. 1984), aff'd, 471 So. 2d 493 (Ala.
1985). I It The test used in determining the
sufficiency of evidence to sustain a
conviction is whether, viewing the evidence
in the light most favorable to the
prosecution, a rational finder of fact
could have found the defendant guilty
beyond a reasonable doubt. If I
Nunn v.
State, 697 So. 2d 497, 498 (Ala. Crim. App.
1997), quoting O'Neal v. State. 602 So. 2d
I IV
462, 464 (Ala. Crim. App. 1992).
When
there is legal evidence from which the jury
could,
by fair inference,
find the
defendant guilty, the trial court should
submit [the case] to the jury, and, in such
a case, this court will not disturb the
trial court's decision. II I
Farrior v.
State, 728 So. 2d 691, 696 (Ala. Crim. App.
1998), quoting Ward v. State.- 557 So. 2d
848, 850 (Ala. Crim. App. 1990). 'The role
of appellate courts is not to say what the
facts are.
Our role
... is to judge
whether the evidence is legally sufficient
to allow submission of an issue for
decision
[by]
the jury.'
Ex parte
8

Appendix A

Bankston.
1978) .

358

So.

2d

1040,

1042

(Ala.

?! ?

_
• JhS trial court's denial of a motion
for judgment of acquittal must be reviewed
by determining whether there was leqal
evidence before the jury at the time the
motion was made from which the jury bv fair
inference could find the defendant guilty.
Thomas v.—State. 363 So. 2d 1020 (Ala Cr.
in applying this standard,
App. 1978).
this court will determine only if legal
evidence was presented from which the jury
could have found the defendant guilty
beyond a reasonable doubt.
Willis v
Btate, 447 So. 2d 199 (Ala. Cr. App. 1983)
When the evidence raises questions of fact
for the jury and such evidence,
if
believed, is sufficient to sustain a
conviction, the denial of a motion for
judgment of acquittal does not constitute
®rror- McConnell v. State. 429 So. 2d 662
(Ala. Cr. App. 1983)."
Gavin
v. rtState. 891 So. 2d 907, 974 (Ala.
.
Crim. App. 2003),
(quoting Ward v. State. 610 So. 2d 1190, 1191 (Ala. Crim. App.
1992)) .
'
n i it

Gircumstantial evidence alone is enough
to, support a guilty verdict of the most
heinous crime, provided the jury believes
beyond a reasonable doubt that the accused
is guilty." White v. State, 294 Ala. 265,
272, 314 So. 2d 857, cert, denied, 423 U.S.
951, 96 S. Ct. 373, 46 L. Ed. 2d 288
(1975) .
Circumstantial evidence is in no
way considered inferior evidence and is
entitled
to t the same weight as direct
.
evidence provided it points to the guilt of

H1®aCTA%d'” ~°chran v- St*tA. 500 So. 2d

1161, 1177 (Ala. Cr. App. 1984), affirmed
m pertinent part, reversed in part on
other grounds, Ex parte Cochran. 500 So. 2d
1179 (Ala. 1985)."
9

Appendix A

Scott v. State, 163 So. 3d 389,
456 (Ala. Crim. App. 2012)
(quoting White v. State. 546 So. 2d 1014,
1017 (Ala. Crim.
App. 1989)).
In ______________
Bradford v. State. 948 So.
2006), this Court explained:

2d 574

(Ala. Crim. App.

In
reviewing
a
conviction
based
on
circumstantial evidence, this court must view that
evidence in the light most favorable to the
prosecution. The test to be applied is whether the
jury might reasonably find that the evidence
excluded every reasonable hypothesis except that of
guilt; , not whether such evidence excludes every
reasonable hypothesis but guilt, but whether a jury
might reasonably so conclude. United States v.
Black. 497 F. 2d 1039 (5th Cir. 1974); United States
V. McGlamorv. 441 F. 2d 130 (5th Cir. 1971); Clark
v. United States. 293 F. 2d 445 (5th Cir. 1961).

ft I fl

The sanctity of the jury function demands
that this court never substitute its decision for
that of the jury.
Our obligation is [to] examine
the welter of evidence to determine if there exists
any reasonable theory from which the jury might have
concluded that the defendant was guilty of the crime
charged." McGlamorv. 441 F. 2d at 135 and 136. i r?
948 So. 2d at 578-79 (quoting Cumbo v. State, 368 So. 2d 871,
874 (Ala. Crim. App. 1978)).
The jury found Horton guilty of the capital offenses of
murder
_
,during the course of
arson, murder during the course
of a robbery, and murder during the course of a burglary. See
§§ 13A-5-40 (a) (9) , (a)(2), and (a)(4), Ala. Code 1975
a
person commits murder if "[w]ith intent to cause the death of
another person, he or she causes the death of that person."
2(a)(l)»- Ala. Code 1975.
A person commits arson in
the first degree if he, "intentionally damages a building by
starting or_maintaining a fire ... and: (1) [a]nother person
is present m such building at the time, and (2) [t]he actor
knows that fact." § 13A-7-41, Ala. Code 1975.
A person
10

Appendix A

commits robbery in the first dearee if ho
ow“rtting„Jthhft 'I' tulses for«

+-v.
the per3ConUofethS

physical "power
use of force against the person of the ow^r "8

«
w^th"?^

p?ope??^..ari3e
A-r4c3e s ther ^ °f ™ -ciPiS“iirSe
armed with a deadly Weapon or dangerous^ns^rum^nt-°n "[1IS
or
§ 13A-8-41,
Code 1975, defines
first-degree burglary, in pertinent part, as follows:
the f+-A Ilerson commits the crime of burglary in
nn, ^
degree if he or she knowingly and
unlawfully, enters or remains unlawfully in a
ellmg with intent to commit a crime therein, and,
if
. '
effe°ting entry or while in dwelling or in
immediate flight therefrom, the person or ganother
participant in the crime:

"(2) Causes physical injury to any person who is
^^t a participant in the crime."
State

andWianc3co^ien;idtehee staS* a^f* "°St f*70rable to the

therefrom,

we hoM* that testate ^“d* “mc^n?

chlefnCthet0Staltbe"1Dt th®fC*se t0 the jury. During its case in
nn ?hl
Jl l Presented evidence that around 8:00-8:30 p .m.
on the night of the murder, Horton was seen at a church and
a
gas station not far from Romprey’s residence.
Horton
was
wearing a white knit

visitina a f-r-ionH
C?5
thS time* Romprey, who had been
u m
i-hLf
' would have arrived home around 9:30-10:00

a.m.
Some of Romprey's belongings were strewn down an embankment
near her home. Her vehicle
was missing from the residence.
beganLecallinS Thi'T”
motorists along Interstate 65
rloort that
Conecuh County Sheriff's Department to
report that there was a disabled vehicle on the interstate
11

Appendix A

near mile marker 77,
Grand Raw
• +. approximately an hour's drive north of
interstate
, *1 reported a mal® walking along the
f h? vehicle, Romprey's PT Cruiser, had run out of
N?fc far fr°1m thS vehicle' investigators found some of
Romprey s personal belongings. Among the items was a revolver
determined to be the murder weapon and identified by a witness
at trial as Romprey's revolver. A white knit cap was also
recovered in the area near the vehicle
Horton's DNA was
found on the PT Cruiser s steering wheel, and
his palm print
was discovered
door. Horton's DNA* andhi^blood were7oundon® the7h±te knTt
cap.
On Sunday morning, April 11, 2010, Officer Morrow picked
up Horton as Horton walked along the interstate near the
notnweSSd PT Cruiter* Horton's clothes were muddy, and he was
be in the^nY Sh0<Vl' H±S explanation as to how he came to
claimedthat r
? conflicting and nonsensical. Horton
claimed that he did not know how he had obtained the vehicle
but said that he drove it until it ran out of gas and then
C^rrled llra the rest of the
Horton had toW
fficer Morrow that he was on his way from Pensacola to a
party m Huntsville with an unnamed individual. They got into
Te toigdmo^-neaMBreWt0rl' and thS individaal abandoned him.
aet
i-iSf ■ ter .°r/OW that h6 h3d Walked through a swamp to

around tht 1(n.terstfat®' When later asked about his whereabouts
around the time of the murder, Horton claimed he did not have
a clear memory of that period.
Before Horton

he was

told that she could not post a bond, Horton responded that he
did not have anyone who would even give him five dollars when
he was "on the run"

“i

1

the telephone. call.
During another telephone call Horton
girlfriend°mt-o:iaB 1dt?- MS girlfriend' he again asked his
girlfriend to bond him out of jail.
When his girlfriend

! -HhanTShe did n0t have an^ money' H^ton became agitated
Jidi * swear to G°d and everybody who — everybody who
aid that they gave a fuck, I'm shooting them and I'm burning
12

Appendix A

their fucking house down."

(R. 2385.)

The evidence in this case - physical evidence linking
Horton to Romprey's vehicle,
■
^'*'s inconsistent explanations
about how he
, cTa1me t0 be in RomPrey's vehicle and on the
area of
iY
^ RomPrey's murder, his presence in the
area of the murder shortly before the murder, the fact that
the murder weapon was found in the area near the abandoned PT
Cruiser, his claim that he was "on the run"
for a murder
charge prior to being charged with or questioned about the
murder, and his threatening statement that he would shoot
those who had not helped him get out of jail and burn their
houses
i j . down ““ was sufficient evidence from which the iurv
?°uld have ri-asonabiy concluded that Horton murdered Romprev
rn her residence, set fire to the residence, and then left [he

ACC°rdiDgly' HOrt°n

no

II.
Horton argues that his arrest for domestic violence was
an unlawful pretextual arrest; therefore, he says, the arrest
was illegal and
4-4-all evidence
^
obtained as a result of that
arrest
the statements made to Det. Tunink and the recorded
telephone calls from jail to his girlfriend — should have
been suppressed.
Horton contends that the arrest was a
pretext, "meant to give [Corporal] Tunink the opportunity to
question Horton ... as a suspect in the murder
case."
(Horton's
brief,
at 26.)
n,
.
claims that the charge, involvina
an altercation with his mother, had not been pursued by either
his mother or Sergeant Steven Welch, to whom the case had
Y
been
assigned.
, .
. orton states that it was only after another
detective involved in the murder investigation contacted
Sergeant Welch that Sergeant Welch issued thl arrest warrant
esJaS? r?quests that this Court revisit existing precedent and
establish a new standard in reviewing claims of pretextual
arrests.
"It is wen established that '[a]n
not be used as a pretext to search for
United States v. Lefkowitz. 285 U.S. 452
Ct. 420, 424, 76 L. Ed. 877 (1932).
A
arrest has been defined as the use of
offense, typically a traffic violation,
13

Appendix A

arrest may
evidence.’
467, 52 S.
pretextual
some minor
as a tool

for obtaining evidence or statements relating to a
greater offense for which the police lack the
required probable cause or reasonable suspicion
otherwise to obtain.' Jonas, Pretext Searches and
the Fourth Amendment; Unconstitutional Abuses of
Power, 137 U. Pa. L. Rev. 1791, 1792 n. 5 (1989)."
Scarbrough v, State. 621 So. 2d 996, 1002-03 (Ala.
Crim. App.
1992). However, the Alabama Supreme Court has held:
. "Recently, the [United States] Supreme Court
again 2rait6irateci its prsfexenc© for an objective
test
context of the Fourth Amendment.
„
. in . the
, ,
Evenhanded law enforcement is best achieved by the
application of objective standards of conduct,
rather
standards
that
„ , . ^. than
depend upon
the
subjective state of mind of the officer.' Horton v.
California. 496 U.S. 128, 110 S. Ct. 2301, 2308-09
(1990) _ (holding that the Fourth Amendment does not
prohibit
. .
, the warrantless seizure of evidence in
plain view even though the discovery of the evidence
was not inadvertent).
"Following the Supreme Court's preference for an
objective standard, we adopt the objective test for
determining whether an arrest was pretextual and
therefore
unlawful.
.
,
long as the police officer
is doing only what is objectively authorized and
legally permitted, the officer's subjective intent
m doing it is irrelevant."
Ex parte Scarbrough. 621 So. 2d 1006, 1009-10 (Ala. 1993).
See aJLso Webster v. State, 662 So. 2d 920 (Ala. Crim. App.
1995).
The circuit court, using the objective test, found that
the State presented sufficient evidence — the complaint by
Horton's mother of a "choking incident" and "evidence about
choke marks" on the victim — establishing probable cause to
arrest Horton for domestic violence.
(R. 261.) Whatever the
detective's subjective intent, he possessed an objective legal
basis to issue the arrest warrant.
Because the arrest was
legal, the circuit court properly denied Horton’s motion to
suppress the evidence.
14

Appendix A

Further,

this

Court

is

parte

So- 2d.288,^90 (1972) (Court of Criminal Appeals "is without
authority to overrule the decisions of [that] court"). Thus
this Court cannot, as Horton requests, abandon the objective
standard adopted by the Alabama Supreme Court in that case,
nor are we inclined to do so.
III.

from Dail to his girlfriend in which he made a threat to shoot
those who did not help him get out of jail and burn their
houses down.
Specifically,
Horton contends that the
recordings should not have been admitted under the identitv
exception to the exclusionary rule prohibiting collateral-act
evidence and that its prejudicial effect outweighed any
probative value.
In

this

thJ recording containing the threat to shoot anyone who did
not help Horton get out of jail and to burn down their houses
was admissible. This Court stated:
... Horton's threat to shoot anyone who did not
help him get out of jail and to burn their houses
down was ... relevant to consciousness of guilt.
See, e.g., People v. Evans. 209, Ill. 2d 194, 222,’
808 N.E.2d 939, 955, 283 Ill. Dec. 651, 667 (2004)
(statement by accused that if he prevailed on his
criminal case he would kill his grandmother because
she
had
helped
the
police
in
the
murder
investigation held admissible as
evidence
of
accused's consciousness of guilt); People v. Turner.
128 Ill. 2d 540, 561-62, 539 N.E.2d 1196, 1205, 132
Ill. Dec. 390, 399 (1989) (statement by accused that
he would kill his cellmate if cellmate interfered
with his escape was admissible as evidence of
accused's consciousness of guilt); and Abram v.
15

Appendix A

-State, 95 Nev. 352, 356-57, 594 P.2d 1143, 1145
(1979) (statement by accused that he was 'going to
get' his girlfriend for 'turning state's evidence
against him' was admissible as evidence of accused's
consciousness of guilt).
"We recognize that in Alabama '[[i]t is a basic
and fundamental principle of evidence that in a
murder prosecution, it is not permissible to show a
difficulty between the accused and a third person
not connected with the victim or the offense '
Caylor v. State, 353 So. 2d 8, 10 (Ala. Crim. App.
I ft
1977).
However, where their connection with the
offense sufficiently appears, evidence of prior [or
subsequent] difficulties between [the] accused and
a third person is admissible.'" Heliums v. State.
549 So. 2d 611, 614 (Ala. Crim. App. 1989) (quoting
40 C.J.S. Homicide § 209 (1944)) (emphasis omitted).
The test to be applied in determining whether a
defendant's threat to kill a person other than the
murder victim is admissible 'is whether there was a
reasonable and sufficient connection between the
threat to the third person and the killing.' State
v^, Ramirez, 116 Ariz. 259, 266, 569 P.2d 201, 208
(1977).
in this case, we believe there was a
sufficient connection between Romprey's murder and
Horton s threat to kill people and burn their houses
down. ... [T]he threat to shoot people and then burn
their houses down involved the same unique
circumstances as Romprey's murder — Romprey was
shot and her mobile home was then burned down.
"Therefore, we hold that the trial court
properly admitted evidence . . . that [Horton] had
threatened to shoot anyone who did not help him get
out of jail and to burn their houses down."
Horton v. State. 217 So. 3d 27, 50 (Ala. Crim. App. 2016).
Although this Court reversed Horton's convictions on
another issue and the admissibility of the recordings was not
necessary to the disposition of the case, because the issue
was likely to arise again during Horton's retrial, this Court
addressed it. Despite this Court's ruling that the recordings
16

Appendix A

were admissible, the circuit court requested that the State
present another ground for their admissibility,
The State
argued that the threat Horton had made during one of the
recorded calls was admissible to prove identity, and the
ground*” C°Urt allowed the recordings to be admitted on that
Since the issue was briefed and argued by the parties on
direct appeal following Horton’s first trial, this Court's
pronouncement that the recordings were admissible is judicial
dictum, rather than mere obiter dictum.
See People v
T7^la,m„S„' 204
2d 191, 206, 273 Ill. Dec. 213; 788 N.E.2d
1126 (2003).
Judicial dictum is not a binding decision;
however, it provides guidance to lower courts and must be
given considerable weight.
See United States v. Bell. 524
F.2d 202, 206 (2nd Cir. 1975).
Given that the issue and
evidence remains the same, this Court adopts our previous
finding that the recordings were admissible as consciousness
of guilt; therefore, we need not address whether the circuit
court properly allowed the recordings into evidence under the
identity exception to the exclusionary rule. ”[W]e may affirm
the trial court's judgment 'on any valid ground or rationale,
even one rejected or not considered by the trial court, so
long as notice of the ground, and an opportunity to respond is
shown by the record to have been available, to satisfy the
minimum requirements of due process.'" Tolbert v st*t«=> m
So
3d 747, 750 (Ala. Crim. App. 2011—(quoting Ex ^arte
Kelley, 870 So. 2d 711, 714 (Ala. 2003)). Further,
the
prejudicial
effect did
not substantially outweigh
the
evidence's probative value.
See Rule 403, Ala. R. Evid.
Thus, Horton is entitled to no relief on this claim.
IV.
Horton argues that the circuit court erred by granting
the State's challenge for cause with respect to prospective
juror R.P. Horton asserts that R.P. indicated that she could
consider imposing a death sentence in an appropriate case.
"The test for determining whether a strike rises
to the level of a challenge for cause is 'whether a
juror can set aside their opinions and try the case
fairly and impartially, according to the law and the
evidence.'
Marshall v. State, 598 So. 2d 14, 16
17

Appendix A

(Ala.
Cr. App.
1991).
. ,
,
Broad discretion is vested
with the trial court in determining whether or not
to sustain challenges for cause.' Ex parte Nettles.
435 So. 2d 151, 153 (Ala. 1983).
'The decision of
the trial court "on such questions is entitled to
great weight and will not be interfered with unless
clearly erroneous,
equivalent to an abuse of
discretion.'" Nettles. 435 So. 2d at 153."
Dunning v. State. 659 So. 2d 995, 997 (Ala. Crim. App. 1994).
In Revis v. State. 101 So. 3d 247 (Ala. Crim. App. 2011),
this Court stated:
n i i! i

A trial judge is in a
decidedly better position than an
appellate court to assess the
credibility of the jurors during
voir dire questioning.
See Ford
v. State. 628 So. 2d 1068 (Ala.
Crim.
App.
1993) .
For
that
reason, we give great deference
to a trial judge's ruling on
challenges for cause.
Baker v.
State. 906 So. 2d 210 (Ala. Crim.
App. 2001).’
u i n

Turner v. State. 924 So.
(Ala. Crim. App. 2002).

2d 737,

" 'The
"original
constitutional yardstick" on this
issue
was
described
in
Witherspoon v. Illinois. 391 U.S.
510, 88 S.Ct. 1770, 20 L.Ed.2d
776 (1968) . Under Witherspoon,
before a juror could be removed
for cause based on the juror's
views on the death penalty, the
juror had to make it unmistakably
clear that he or she would
automatically vote against the
death penalty and that his or her
feelings on that issue would
18

Appendix A

754

therefore prevent the juror from
making an impartial decision on
guilt,
However, this is no
longer the test.
In Wainwricrht
v. Witt. 469 U.S. 412, 105 S.Ct.
844, 83 L.Ed.2d 841 (1985), the
United States Supreme Court held
that the proper standard for
determining
whethe r
a
veniremember should be excluded
for cause because of opposition
to the death penalty is whether
the veniremember’s views would
II I
prevent or substantially impair
the performance of his duties as
a juror in accordance with his
instructions
and his
oath. 1 II
[Quoting Adams v. Texas. 448 U.S.
38, 45 (1980).]
The Supreme
Court has expressly stated that
juror bias does not have to be
proven
with
"unmistakable
clarity." Darden v. Wainwricrht.
477 U.S. 168, 106 S.Ct. 2464, 91 L.Ed.2d 144 (1986).'
II I If

Pressley v. State. 770 So. 2d 115, 127
(Ala. Crim. App. 1999 ), aff'd, 770 So. 2d
143 (Ala. 2000) .
See also Uttecht v
Brown, 551 U.S. 1, 9, 127 S.Ct. 2218, 2224,
167 L.Ed.2d 1014 (2007) ('[A] juror who is
substantially impaired in his or her
ability to impose the death penalty under
the state-law framework can be excused for
cause;
but
if
the
juror
is
not
substantially impaired, removal for cause
is impermissible.')."
II I

Saunders v. State, 10 So. 3d 53, 75-76 (Ala. Crim.
App. 2007), cert, denied, Saunders v. Alabama. 556
U.S. 1258,
129 S.Ct. 2433, 174 L.Ed. 2d 229
(2009) . I II
Revis, 101 So. 3d at 307 (quoting Johnson v. State. 120 So. 3d
19

Appendix A

1130/ 1212 (Ala. Crim. App. 2009)).
R.P. indicated on her juror questionnaire that she was
opposed to capital punishment "except in a few cases where it
may beappropriate."
(R. 1090-91.)
She indicated that she
completely opposed to capital punishment but that her
position depended on the nature of the crime. When asked by
e circuit court to clarify what she meant by "the nature of
the crime,
R.P. responded, "If it's premeditated and a
g uesome crime ... [a]nd it's proven that, you know, the
person actually did it."
(R. 1091.) R.P. also indicated on
her questionnair® that she had a religious belief that would
prohibit her from sitting in judgment,
During further
questioning by the circuit court, R.P. stated that she
was
generally opposed to the death penalty, that she could impose
the death penalty, but that she would rnot want to do it. The
circuit
court ,asked R.P. If she would be able to impose the
.
Jvfnaity
the state Put on evidence that would suggest
that the death penalty is the appropriate penalty.
R.p.
replied, "It would be hard. It would be hard.
... it would
be hard for me to take someone's life."
(R. 1095 )
When
asked if she could vote for death by lethal injection, she
said,
I can t say that I can do that."
(R. 1098.)
After
further questioning, R.p. stated that she could follow the law
and choose between the death penalty and life in prison
without the possibility of parole, The questioning concluded
with the following:
Court:

"Could you choose the death penalty?"

R.P. :

"I'm not for certain. I haven’t heard the
facts or the evidence, so I can't say that
I can."

Defense:

"It just depends on what you hear?"

R.P. :

"Yes, sir. "

(R. 1104.)
„
4-The State
,
court granted
could impose
aggravating

moved to stike R.P. for cause.
The circuit
the motion, explaining that when asked if she
a death sentence if she found that the
circumstances
outweighed
the
mitigating
20

Appendix A

circumstances, she would not say she could do it.
court said,

The circuit

^USt Say I,d have to think about it. And
I d have to know what the evidence is.
She went
back to that.
She just wouldn't say she would
impose a death penalty in my opinion.
I think
that s -- it's close, I agree, and she did say [she]
could give fair consideration.
"But, ultimately, again, I mean, I'm just trying
lair t0 both sides in this thing.
I don't
think she ever said she would. And she definitely
said she wouldn't, initially, in response to initial
questioning by [the State]."
(R. 1106.)
Defense counsel argued that R.P. had stated that she
could decide. The circuit court responded:
"No, she would not on death. She said I could
make a choice. And I'd said, well, okay, could you
make a choice of death? Oh, I'd have to hear all
the evidence.
I mean, she just wouldn't say 'yes
to that question.
"And then
given her other responses, given the
,
questionnaire responses, I think just in fairness to
both sides, I'm going to grant the challenge for
cause."
(R. 1107.)
Although R.P. stated that she could follow the law, her
answer to whether she could impose the death penalty should it
be appropriate under the law was equivocal.
The circuit
court, which was in the best position to assess R.P.'s
credibility, was within its discretion to find that she could
not perform her duty as a juror. As such, the circuit court
did not abuse its discretion in granting the State's motion
challenging R.P. for cause.

21

Appendix A

V.
refused to
the circuit court erred when it
he dfd ^ tt CaSSS a^ainst him* Horton argues, as
Statpdrft, iaHLU hat hS WaS entitled to dismissal because the
first tSal^and ?hV1Ctim,t computers to her family after the
inspection or?or tn h COmputer? were not available to him for
nspectiion prior to his second trial. Horton speculates that
because Romprey had used dating websites at some point
evidence pointing to other suspects may have been on her

“^t oHf

faTth.^ that thS r8tUrn °f the

"The Alabama Supreme Court, in Ex parte Ginoo.
605 So. 2d 1237 (Ala. 1992), adopted the United
States Supreme Court's position in Arizona v.
Youngblood. 488 U.S. 51, 109 S. Ct. 333, 102 L. Ed.
2d
. 281„ (1988),
.
regarding the allegations that the
state failed to preserve evidence potentially useful
to the defense:
ti

r ii

[U]nless a criminal defendant can
show bad faith on the part of the police,
failure to preserve potentially useful
evidence does not constitute a denial of
due process of law." Youngblood. 488 U.S.
at 58, 109 S. Ct. at 337. "The presence or
absence of bad faith by the police for
purposes of the Due Process Clause must
necessarily turn on the police's knowledge
of the exculpatory value of the evidence at
the time it was lost or destroyed."
Youngblood, 488 U.S. at 57 (footnote), 109
S. Ct. at 337 (footnote), citing Napue v
.Illinois, 360 U.S. 264, 269, 79 S. Ct.
1173, 1177, 3 L. Ed. 2d 1217 (1959).'
"605 So.
2d at 1240-41.
Gingo additionally
recognized that a defendant's right to due process
can be violated when the loss or destruction is of
evidence so critical to the defense that its loss or
destruction makes the trial fundamentally unfair

luting Youngblood. 488 U.S. at 67, 109 S. Ct.
22

Appendix A

May v. State. 710 So. 2d 1362, 1369 (Ala. Crim. App. 1997).

that the State s inability to produce the computers was a
result of the State's acting in bad faith. Further, he has

knew^r^ anY erdence that the state or law enforcement

knew that the computers contained exculpatory information at
the time they were returned to the victim's family. Horton
relies on conjecture and speculation that the computers may
have contained information pointing to other suspects. Horton
has not shown that the computers were so critical to his
nnS?Se
absence made his trial fundamentally
unfair
Therefore, the circuit court did not err in denying
Horton's motion to dismiss.
y 9
Accordingly,
affirmed.

the

judgment

of

the

circuit

AFFIRMED.
Kellum, McCool, Cole, and Minor, JJ., concur.

23

Appendix A

court

is

DOCUMENT 316

IN THE CIRCUIT COURT OF MOBILE COUNTY,
STATE OF ALABAMA

*

v.

♦

DEREK TYLER HORTON

*

JgHftk ELECTRONICALLY FILE§9®
\(%W)
6/27/201812:11 PM
G2-CO2011-002588.80
CIRCUIT COURT OF
MOBILE COUNTY, ALABAMA
JOJO SCHWARZAUER, CLERK

CASE NO, CC-2011-2588,80

ORDER
Sentencing hearing held today.
There are no changes to the presentence report.
It is ordered by the Court that the Defendant is now sentenced as follows:
Count I - Capital Murder (robbery) - Life without Parole;
Count II - Capital Murder (arson) - Life without Parole; and
Court III - Capital Murder (burglary) - Life without Parole.
Sentences are to ran concurrent.
The Court, due to family hardship, recommends that the Defendant be incarcerated at
Holman Prison.
Defendant to be given credit for time served.
Remit costs of court.
Defendant gives written notice of appeal.
It is ordered by the Court that Gienn Davidson and Robert Thomas, licensed
attorneys, are hereby appointed to represent, assist and defend the Defendant in this
appeal in this matter.
TRAVIS ATKINS, ALISA DORILMA, LYNNE FRANTZ, and SANDRA PRESLEY,
Official Court Reporters, are hereby ordered to transcribe testimony and proceedings
had at the trial of this case and to file Transcript of Testimony and proceedings with the
Clerk of the Circuit Court of Mobile County, Alabama to be paid by the State of
Alabama.
IN COURT: Defendant, Defendant’s shadow counsel Glenn Davidson and Robert
Thomas, Assistant District Attorneys JoBeth Murphree and Jennifer Wright.
Dated: June 27,2018.
Lynne Frantz
Ct Reporter

Appendix D

The Element in the Room: Requiring Probable Cause of Every
Element of a Crime
HI proceedinas.nvumootcourt.ora/2017/12/the-element-in-the-room-reauirina-Drobable-cause-of-everv-element-of-acrime/

QNYU I LAW MOOT COURT BOARD

PROCEEDINGS
By Kimberly La From1
The Fourth Amendment aims to strike a balance between the fundamental right to be free
from unreasonable searches and seizures and allowing law enforcement officers to take
effective action to protect the public interest.- Yet, because the standard for effecting war­
rantless arrests relies on a nebulous “totality of the circumstances” analysis,- exactly what
information a police officer must consider before effecting such an arrest is unclear. While
much of the probable cause calculation is settled law at this points, it remains undecided
whether an officer must have probable cause for every element of a crime, including mens
rea, and how much attention officers must pay to evidence tending to negate that mens
rea. Ultimately, this Contribution will argue that in order to effect a warrantless arrest a
police officer must have probable cause with respect to every element of the crime in order
to effect a warrantless arrest and must not ignore exonerating evidence in their totality of
the circumstances analysis.
* * * ★ ★

Precedent is clear that, in order to make a valid arrest without a warrant, the arresting offi­
cer must analyze probable cause at least as stringently as the warrant process woulc£
since an arrest without a warrant “bypasses the safeguards provided by an objective pre­
determination of probable cause.”-To meet this requirement, the officer is required to con­
sider the “totality of the circumstances,” a standard first instituted by the United States
Supreme Court in Illinois v. Gates to determine whether probable cause existed to search
a house.- The Court emphasized that the totality of the circumstances analysis was meant
to be a “commonsense, practical” analysis.Yet case law is often unclear as to what information must be considered in the totality of
the circumstances analysis and what officers must have probable cause of in order to
arrest a person. Prior to Illinois v. Gates, the Supreme Court held that a warrantless arrest
was unconstitutional absent “information hinting further at the knowledge and intent
1/6

Appendix E

required as elements of the felony under the statute.”3- In United States v. Di Re, the officer
made an arrest because he saw illegal gambling coupons in a car, but the Court noted that
presence alone did not speak to the knowledge and intent requirements of the statute.—
Yet, subsequently in Maryland v. Pringle, where multiple men were found in a car with con­
trolled substances, the Court permitted the arresting officers to infer the knowledge mens
rea for each individual11 While officers need not have trial-level proof of every element of
the crime at the moment of arrest,13 the Pringle and Di Re decisions indicate that mens rea
must play a part in the totality of the circumstances analysis in some way. The remaining
question is whether officers must have specific facts indicating the requisite mens rea or
whether a mere inference will always suffice.
Though Pringle seemed to suggest that an inference is sufficient, circuit courts have split
on the issue. The Fourth, Seventh, and Ninth Circuits hold that an officer need not estab­
lish probable cause for each element of an offense,—while the Third, Sixth, Eighth, and
D.C. Circuits hold that probable cause must extend to every element of an offense.— One
of the earliest cases to adopt the understanding of probable cause as not requiring proba­
ble cause for every element, United States v. Sevier, focused on the idea that probable
cause should be practical and nontechnical.— But as the Eighth Circuit said, “[f]or probable
cause to exist, there must be probable cause for all elements of the crime, including mens
>>16

By its very nature, the totality of the circumstances test requires an officer to consider all
circumstances related to a possible crime. A number of the circuit courts have emphasized
that law enforcement cannot ignore or disregard exculpatory facts in their probable cause
analysis.— Necessarily, the totality of the circumstances analysis, while providing that law
enforcement officers can look at the entirety of the circumstances surrounding the alleged
crime, also requires that they consider facts tending to dissipate probable cause.— To hold
otherwise would render probable cause analysis a nullity, because officers could claim
probable cause despite significant facts to the contrary.
it is a necessary aspect ot the totality of the circumstances analysis that "ponce otticers
may not ignore easily accessible evidence and thereby delegate their duty to investigate
and make an independent probable cause determination based on that investigation.”13
The probable cause inquiry “requires officers to reasonably interview witnesses readily
available at the scene, investigate basic evidence, or otherwise inquire if a crime has been
committed at all before invoking the power of a warrantless arrest and detention.”33 Failure
to investigate exculpatory or other information prior to arrest can prevent the establishment
of probable cause.—
In BeVier v. Hucal, the Seventh Circuit held that an arrest was not valid without evidence of
the requisite mens rea and that an officer’s decision to ignore information tending to
negate mens rea opened him up to a valid § 1983 claim.—The Seventh Circuit does not
2/6

Appendix E

require probable cause of every element of the crime22 yet still prohibits officers from
ignoring exculpatory evidence on the subject of mens rea. And circuits on both sides of the
split agree that it is in keeping with law enforcement’s duty to examine the totality of the cir­
cumstances that officers may not close their eyes to facts that would clarify the circum­
stances of an arrest, particularly where it is unclear whether a crime had taken place or
where further investigation may exonerate the suspect.—While law enforcement need not
have proof beyond a reasonable doubt at the time of arrest,22 they must at least conduct a
reasonably thorough investigation where there are no exigent circumstances—or where
minimal, reasonable further investigation would shed light on the events.—This logic
demonstrates that the workable solution to questions of mens rea at the moment of arrest
is to return to a more robust understanding of the totality of the circumstances analysis that
focuses on the actual totality, both exculpatory and inculpatory.
*****

Advocates of not requiring probable cause for mens rea argue that asking officers to look
into the state of mind would frustrate legitimate law enforcement purposes.— However,
under the probable cause of mens rea standard, officers need not peer into suspects’
minds in order to ascertain their mental state at the time of a possible crime. While officers
cannot know what a suspect’s exact state of mind is, they also may not ignore evidence
suggesting a suspect lacks the requisite mens rea. For most crimes, a guilty mens rea is
what makes otherwise innocent behavior into criminal action. Without evidence of that
mens rea, criminal suspects risk having their lives disrupted by court proceedings or pre­
trial detention despite having engaged in behavior not specifically criminalized by the
statute.
Evidence tending to support or negate the existence of the requisite mens rea is often
readily available at the time of arrest. As a start, criminal suspects may make statements
either inculpating or exculpating themselves. Yet officers do not have to just take suspects
at their words.— As was the case in Maryland v. Pringle, officers make inferences about
whether knowledge or intent existed by, for example, looking at how visible the illicit sub­
stances were or how obvious the criminal behavior was.22 The key point here is that offi­
cers must not only look at evidence that supports the guilty mens rea; the totality of the cir­
cumstances analysis necessarily requires them to also examine evidence tending to
negate mens rea, just as they must for any other piece of exculpatory or undisputed infor­
mation.
In order to abide by this proposed standard, law enforcement officers do not need to con­
duct an exhaustive investigation prior to arrest. Instead, effective and constitutional law
enforcement includes learning “what easily could have been learned, and in common pru­
dence should have been,”21 or performing minimal investigation that “would have reduced
any suspicion created by the facts police had discovered.”22 Already, law enforcement offi3/6

Appendix E

cers check the Vehicle Identification Number of a car or ask its driver for the vehicle’s reg­
istration papers prior to concluding that a car is stolen. It is not unreasonable to ask that an
officer similarly ask suspects about the circumstances of the alleged crime or consider
information easily produced or readily available at the scene that sheds light on a
suspect’s state of mind. That basic level of inquiry would satisfy the proposed inquiry into
the suspect’s mens rea.
*****

An understanding of the totality of the circumstances analysis that considers both inculpa­
tory and exculpatory information with regards to the suspect’s mens rea and requires mini­
mal investigation in unclear circumstances bridges the gap between the inability of law
enforcement officers to read the minds of criminal suspects and the right of people to be
free from unreasonable arrests. By doing so, it still allows law enforcement to do their jobs
quickly and on the scene but prevents wrongful arrests and the many consequences that
can accompany such unlawful arrests. In the compromise between these important inter­
ests, requiring law enforcement officers to examine the true totality of the circumstances
strikes the right balance.
Notes:
1. Kimberly La Fronz is a 3L at New York University School of Law. This piece is a com­
mentary on a problem written for the 2017 Herbert Wechsler National Criminal Moot Court
Competition at the University of Buffalo School of Law. The issue in the problem centered
on whether law enforcement officers must have probable cause of the requisite mens rea
to effect an arrest and how much investigation officers must do for that element of the
crime. The views expressed in this article do not necessarily represent the views of the
author on this point. Rather, this article is a distillation of one side of an argument assigned
to the team.
Z Brinegar v. United States, 338 U.S. 160, 176 (1949) (The probable cause requirement of
the Fourth Amendment is a compromise that “seek[s] to safeguard citizens from rash and
unreasonable interferences with privacy and from unfounded charges of crime. [It] also
seek[s] to give fair leeway for enforcing the law in the community’s protection.”).
cL Maryland v. Pringle, 540 U.S. 366, 371 (2003) (“The probable-cause standard is inca­
pable of precise definition or quantification into percentages because it deals with probabil­
ities and depends on the totality of the circumstances.”).
4± Corbin Houston, Probable Cause Means Probable Cause: Why the Circuit Courts
Should Uniformly Require Officers to Establish Probable Cause for Every Element of an
Offense, 2016 Univ. of Chicago Legal Forum 809, 809 (2016) (“While many of the nuances
of probable cause are settled law, there still remains much ambiguity surrounding the
doctrine’s application by law enforcement in the area of warrantless arrests.”).
iL Wong Sun v. United States, 371 U.S. 471,479 (1963) (“Whether or not the require4/6

Appendix E

merits of reliability and particularity of the information on which an officer may act are more
stringent where an arrest warrant is absent, they surely cannot be less stringent than
where an arrest warrant is obtained.”).
6. Beck v. Ohio, 379 U.S. 89, 96 (1964).
7. See Illinois v. Gates, 462 U.S 213, 230-31 (1983).
1L Id. at 230.
fL United States v. Di Re, 332 U.S. 581,592 (1948).
10. Id. (“at the time of the arrest the officers had no information implicating Di Re and no
information pointing to possession of any coupons, unless his presence in the car warrant­
ed that inference. Of course they had no information hinting further at the knowledge and
intent required as elements of the felony under the statute.”).
11. Maryland v. Pringle, 540 U.S. 366, 373 (2003) (“Here we think it was reasonable for
the officer to infer a common enterprise among three men. The quantity of drugs and cash
in the car indicated the likelihood of drug dealing, an enterprise to which a dealer would be
unlikely to admit an innocent person with the potential to furnish evidence against him.”).
12. Adams v. Williams, 407 U.S. 143, 149 (1972) (“Probable cause does not require the
same type of specific evidence of each element of the offense as would be needed to sup­
port a conviction.”).
13. See Houston, supra note 4, at 809; Oilman v. Reeves, 452 F. App’x 263, 270-71 (4th
Cir. 2011); Spiegel v. Cortese, 196 F.3d 717, 724 n.1 (7th Cir. 1999); Gasho v. United
States, 39 F.3d 1420, 1428 (9th Cir. 1994).
14. See Houston, supra note 4, at 809-10; Williams v. City of Alexander, 772 F.3d 1307,
1312 (8th Cir. 2014); Wesby v. District of Columbia, 765 F.3d 13, 20 (D.C. Cir. 2014); Unit­
ed States v. Joseph, 730 F.3d 336, 342 (3d Cir. 2013); Thacker v. City of Columbus, 328
F.3d 244, 256 (6th Cir. 2003).
15. United States v. Sevier, 539 F.2d 599, 603 (6th Cir. 1976) (citing Beck v. Ohio, 379
U.S. 89 (1964)). See also Houston, supra note 4, at 814 (“TheSewer court likely seized on
Beck's language that ‘the rule of probable cause is a practical, nontechnical conception
affording the best compromise that has been found for accommodating...often opposing
interests.’”).
16. Williams, 772 F.3d at 1312.
^^^e^To"l^iafor^^^vTor"834,^^^^^^l875ti^!M988Wofficer^!ma^io^!^
regard facts tending to dissipate probable cause”); BeVier v. Hucal, 806 F.2d 123, 128 (7th
Cir. 1986) (“The continuation of even a lawful arrest violates the Fourth Amendment when
police discover additional facts dissipating their earlier probable cause”); Kuehl v. Burtis,
173 F.3d 646, 650 (8th Cir. 1999) (“An officer contemplating an arrest is not free to disre­
gard plainly exculpatory evidence”); Baptiste v. J.C. Penney Co., 147 F.3d 1252, 1259
(10th Cir. 1998) (officers “may not ignore available and undisputed facts”).
18. Bigford. 834 F.2d at 1218 (“As a corollary...of the rule that the police may rely on the
totality of facts available to them in establishing probable cause, they also may not disre­
gard facts tending to dissipate probable cause.”).
37d

Appendix E

19, Baptiste, 147 F.3d at 1259.
20. Romero v. Fav. 45 F.3d 1472. 1476-77 (10th Cir. 19951.
21. See. e.g., United States v. Ramirez-Rivera, 800 F.3d 1,28 (1st Cir. 2015) (failure to
attempt to corroborate informant’s tip vitiated probable cause); Sevigny v. Dicksey, 846
F.2d 953, 958 (4th Cir. 1988) (failure to learn what easily could have been learned vitiated
probable cause); Bigford, 834 F.2d at 1218 (failure to complete minimal investigation vitiat­
ed probable cause); BeVier, 806 F.2d at 128 (failure to pursue reasonable avenues of
investigation vitiated probable cause); Kuehl, 173 F.3d at 650 (failure to conduct a reasonably thorough investigation vitiated probable cause).______________________________
2Z806 F.2d at 128 (“Because this information [about the child’s condition and parents’
behavior] could have been easily obtained and was necessary before concluding that
Robert and Annette had intentionally neglected their children, Hucal was unreasonable in
not making those inquiries.”).
23. Spieael v. Cortese, 196 F.3d 717, 724 n.1 (7th Cir. 1999).
24. See, e.g., BeVier, 806 F.2d at 128 (“A police officer may not close her or his eyes to
facts that would help clarify the circumstances of an arrest. Reasonable avenues of investi­
gation must be pursued especially when, as here, it is unclear whether a crime had even
taken place.”); Kuehl, 173 F.3d at 650 (citingBeVier, 806 F.2d at 128).
25. Brinegar v. United States, 338 U.S. 160, 174 (1949) (“If those [guilt beyond a reason­
able doubt] standards were to be made applicable in determining probable cause for an
arrest or for search and seizure...few indeed would be the situations in which an officer...
could take effective action.”).
26. Kuehl. 173 F.3d at 650 (“law enforcement officers have a duty to conduct a reasonably
thorough investigation prior to arresting a suspect, at least in the absence of exigent cir­
cumstances.”).
27. Id. (“probable cause does not exist when a ‘minimal further investigation’ would have
exonerated the suspect.”).
28. Houston, supra note 4, at 830 (“A major reason for the development of the some-ele­
ments approach was the view that requiring probable cause for each element would frus­
trate law enforcement even when conducting warranted searches.”).
^Criss v. Kent, 867 F.2d 259, 263 (6th Cir. 1988) (“A policeman, however, is under no
obligation to give any credence to a suspect’s story.”).
30. Maryland v. Pringle, 540 U.S. 366, 372 (2003) (where Pringle was one of three men in
the car at 3:16 am, there was $763 of rolled-up cash in the glove compartment directly in
front of Pringle, there were five baggies of cocaine accessible to all three men, and the
three men failed to offer any information about the ownership of the cocaine or money,
“[w]e think it an entirely reasonable inference from these facts that any or all three of the
occupants had knowledge of, and exercised dominion and control over, the cocaine.”).
3L. Sevigny v. Dicksey, 846 F.2d 953, 958 (4th Cir. 1988).
32. Bigford v. Taylor, 834 F.2d 1213, 1219 (5th Cir. 1988).

6/6

Appendix E

